TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2011 Statutory Audit of
                    Compliance With Notifying Taxpayers of
                       Their Rights When Requested to
                        Extend the Assessment Statute



                                           June 6, 2011

                              Reference Number: 2011-30-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2011 STATUTORY AUDIT                      representative signed Consent to Extend the
OF COMPLIANCE WITH NOTIFYING                          Time to Assess Tax (Form 872) and was notified
TAXPAYERS OF THEIR RIGHTS WHEN                        of taxpayer rights regarding extending the
REQUESTED TO EXTEND THE                               assessment statute of limitations. Although
                                                      notification to the taxpayer’s representatives
ASSESSMENT STATUTE
                                                      appears to meet the intent of the law, the IRS’s
                                                      internal procedures require notification to be
Highlights                                            provided to both the taxpayer and the
                                                      representative. TIGTA estimated that 136
                                                      taxpayers’ files did not contain documentation to
Final Report issued on June 6, 2011                   show the taxpayers were directly advised of their
                                                      rights when assessment statutes were
Highlights of Reference Number: 2011-30-055           extended. We are 95 percent confident that the
to the Internal Revenue Service Deputy                range of taxpayers’ files without this
Commissioner for Services and Enforcement.            documentation is between 6 and 265.
IMPACT ON TAXPAYERS                                   TIGTA also identified cases in which IRS
The Internal Revenue Service (IRS) is required        employees improperly used an outdated version
to notify taxpayers of their rights when              of the Form 872, which does not contain a
requesting an extension of the statute of             statement detailing the taxpayers’ rights. When
limitations for assessing additional taxes and        TIGTA brought this issue to management’s
penalties. Based on the results of our review,        attention, management took immediate action to
TIGTA believes the IRS is complying with the          correct the problem.
intent of the statute; however, there were some       In addition, our statistical sample of 72
instances in which IRS employees did not              taxpayers included 42 taxpayers’ files containing
document whether taxpayers or their                   authorizations for third-party representation.
representatives were advised of these rights.         Our review found that 4 (9.5 percent) of the 42
Taxpayers might be adversely affected if the          taxpayers’ files did not contain documentation
IRS does not follow requirements to notify both       that the taxpayers’ representatives were
the taxpayers and their representatives of the        provided with the required notifications. TIGTA
taxpayers’ rights related to statute extensions.      estimated that 136 taxpayers’ files were not
                                                      documented to show that taxpayers’
WHY TIGTA DID THE AUDIT
                                                      representatives were given copies of the written
TIGTA is required by law to annually determine        communications. We are 95 percent confident
whether the IRS complied with Internal                that the range of taxpayers’ files without this
Revenue Code Section 6501(c)(4)(B). This              documentation is between 6 and 265.
requires the IRS to notify taxpayers of their
rights to decline to extend the assessment            WHAT TIGTA RECOMMENDED
statute of limitations or to request that any         TIGTA did not make any recommendations in
extension be limited to specific issues or a          this report because the number of errors was
specific period of time.                              relatively small and IRS management took
                                                      corrective action to prevent the use of outdated
WHAT TIGTA FOUND
                                                      Forms 872. However, a draft of the report was
Our case review of 72 taxpayers with statute          provided to the IRS for review and comment.
extensions showed that the IRS is compliant           The IRS did not have any written comments in
with Internal Revenue Code Section                    response to the report.
6501(c)(4)(B). However, case files for
4 (5.6 percent) of the 72 taxpayers in our
statistical sample did not contain documentation
to indicate whether taxpayers were directly
advised of their rights before consenting to
extend the time to assess tax, but the taxpayers’
                                                    DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    June 6, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                          for Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2011 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When Requested to Extend
                                the Assessment Statute (Audit # 201130008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires that the
 IRS provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to specific issues or a specific period of
 time. The Treasury Inspector General for Tax Administration is statutorily required to provide
 information annually regarding the IRS’s compliance with this provision.1 The audit was
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. The IRS did not have any written comments in response
 to the report.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     Internal Revenue Code Section 7803(d)(1)(c).
                       Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                          Taxpayers of Their Rights When Requested to Extend the
                                            Assessment Statute




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Is Compliant With Legal Requirements;
          However, Some Employees Are Not Following Internal Procedures
          to Notify Taxpayers ...................................................................................... Page 5
          Some Case Files Did Not Have Documentation That Taxpayers’
          Representatives Were Provided With Copies of the Notification
          of Taxpayer Rights ........................................................................................ Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measures............................................................... Page 13
          Appendix V – Prior Audit Reports ............................................................... Page 15
          Appendix VI – Case Review Results by Division ........................................ Page 17
         Fiscal Year 2011 Statutory Audit of Compliance With Notifying
            Taxpayers of Their Rights When Requested to Extend the
                              Assessment Statute




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
RRA 98            Restructuring and Reform Act of 1998
                   Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute




                                            Background

The Internal Revenue Service (IRS) is required by the IRS Restructuring and Reform Act of
1998 (RRA 98)1 and the Internal Revenue Code (I.R.C.)2 to advise taxpayers of their rights when
requesting an extension of the statute of limitations for
the assessment of additional taxes and penalties. When
the IRS audits a tax return and determines that there is         The IRS is required to advise
an additional tax liability, the additional tax assessment      taxpayers of their rights when
must generally be processed within 3 years from the date       requesting an extension of the
the return was due or from the date on which the return          statute of limitations for the
                                                               assessment of additional taxes
was actually filed, whichever is later. This 3-year                     and penalties.
assessment statute of limitations normally cannot be
extended without the taxpayer’s written consent.3 To
extend the statute, the IRS generally requests that the taxpayer(s) provide a signed consent form,
either Consent to Extend the Time to Assess Tax (Form 872) or Consent to Extend the Time to
Assess Employment Taxes (Form SS-10).4
These consents extend the assessment statute of limitations to either a specific period of time or
an unlimited, indefinite period. The statute is usually extended for a period of time that both the
IRS and the taxpayer agree is reasonable to complete the examination. The consent can also be
negotiated to apply only to certain audit issues.
In passing the RRA 98, Congress expressed concern that taxpayers had not always been fully
aware of their rights to refuse to extend the statute of limitations or to request that a statute
extension be limited to specific issues or a specific period of time. Some taxpayers might
believe that they are required to agree to an extension upon the request of the IRS. Congress
wanted to ensure that taxpayers were informed of their rights to refuse the proposed statute
extension or to have it limited.




1
  RRA 98 Section (§) 3461(b)(2)(B), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections
of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
2
  I.R.C. § 6501(c)(4)(B).
3
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent returns are filed.
4
  IRS employees who often request assessment statute extensions are examiners in the various Examination
functions of the business divisions and appeals officers in the Office of Appeals.
                                                                                                          Page 1
                 Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                    Taxpayers of Their Rights When Requested to Extend the
                                      Assessment Statute



A taxpayer might agree to extend the assessment statute of limitations for the following reasons:
   •   The taxpayer might want to pursue additional audit issues that are in the taxpayer’s favor
       in offsetting a proposed tax assessment or that might allow for a tax refund.
   •   If the remaining time before the statute expires is too short, the IRS might have to
       prematurely stop the audit process and issue a notice of deficiency that limits the time for
       the normal appeals process before the taxpayer must file a petition with the United States
       Tax Court.
A taxpayer might decide to limit or refuse to extend the assessment statute of limitations
because:
   •   The taxpayer might not want to provide the IRS more time to consider additional audit
       issues.
   •   The taxpayer might not want to allow the IRS the opportunity to further develop audit
       issues already under consideration after the normal statute period has expired.
RRA 98 Section (§) 3461(b)(2)(B) requires the IRS to “. . . notify the taxpayer of the taxpayer’s
right to refuse to extend the period of limitations, or to limit such extension to particular issues or
                                         to a particular period of time, on each occasion when the
                                         taxpayer is requested to provide such consent.” To
    The RRA 98 requires taxpayers
   to be informed of their rights to     implement this statutory requirement, the IRS revised its
     refuse to extend the period of      procedures to direct IRS employees to provide the
        limitations or to limit the      taxpayer with a Request to Extend Assessment Statute
   extension to specific issues or a     (Letter 907) or Letter Transmitting Consent Extending
              period of time.            Period of Limitation (Letter 967). Included with these
                                         Letters should be the actual consent forms to be signed and
Extending the Tax Assessment Period (Publication 1035).
The consent forms were revised to include a prominent statement informing taxpayers of their
rights regarding assessment statute extensions and to provide information about
Publication 1035. Figure 1 shows that the revised consent forms also include a statement for the
taxpayers’ representatives to sign, confirming they were notified of their rights regarding
assessment statute extensions and the taxpayers were made aware of the same rights.




                                                                                               Page 2
                       Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                          Taxpayers of Their Rights When Requested to Extend the
                                            Assessment Statute



                                     Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: IRS Form 872.

Federal regulations require that any notice or other written communication required to be given
to a taxpayer also be given to the taxpayer’s representative (unless restricted by the taxpayer).5
IRS employees are instructed to document in their case file activity log whether the taxpayer was
notified of his or her rights each time the IRS requested an assessment statute extension. In
addition, IRS internal procedures require employees to provide copies of any correspondence
with a taxpayer’s representative to the taxpayer.
The Treasury Inspector General for Tax Administration is required by the RRA 98 to provide
information annually regarding the IRS’s compliance with I.R.C. § 6501(c)(4)(B). This report
presents the results of our twelfth annual review of the IRS’s compliance with the statute
extension provisions of the law.6 As in the previous 11 reports, we continued to identify some
noncompliance with Federal regulations and IRS internal procedures.
This review was performed at the Office of Appeals Headquarters, Large Business and
International Division Headquarters, Small Business/Self-Employed Division Headquarters, Tax
Exempt and Government Entities Division Headquarters, and Wage and Investment Division
Headquarters in Washington, D.C., during the period September 2010 through March 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

5
    26 C.F.R. § 601.506 (2002).
6
    See Appendix V for a list of our prior reports.
                                                                                           Page 3
                Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 4
                 Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                    Taxpayers of Their Rights When Requested to Extend the
                                      Assessment Statute




                                 Results of Review

The Internal Revenue Service Is Compliant With Legal Requirements;
However, Some Employees Are Not Following Internal Procedures to
Notify Taxpayers
Our case review of 72 taxpayers with statute extensions showed that the IRS is compliant with
I.R.C. § 6501(c)(4)(B). However, case files for 4 (5.6 percent) of the 72 taxpayers in our
statistical sample did not contain documentation to indicate whether taxpayers were directly
advised of their rights before consenting to extend the time to assess tax, but the taxpayers’
representative signed Form 872 and was notified of taxpayer rights regarding extending the
assessment statute of limitations. Although legal requirements were satisfied when the
taxpayers’ representatives were informed of the taxpayers’ rights, there was no documentation in
the case files to show that taxpayers were directly informed of their rights.
IRS procedures require employees to provide copies of any correspondence with the
representative to the taxpayer. Specifically, the Internal Revenue Manual states that
“. . . notification must be made to the taxpayer…and the taxpayer’s representative. . . ”
The notification process is also explained in Practice Before the IRS and Power of Attorney
(Publication 947), in which the IRS informs the taxpayer:
       If you have a recognized representative, you and the representative will receive notices
       and other correspondence from the IRS. . . the IRS will send your representative(s) a
       duplicate of all computer-generated correspondence that is sent to you. . . . The IRS
       employee handling the case is responsible for ensuring that the original and any
       requested copies of each manually-generated [sic] correspondence are sent to you and
       your representative(s) in accordance with your authorization.
Although notification to the taxpayer’s representatives appears to meet the intent of the law, the
failure to notify both the taxpayer and the representatives does violate the IRS’s internal
procedures. IRS procedures and publications are clear that the expectation is for both the
taxpayer and the taxpayer’s representative to receive notices, including notification of the
taxpayer’s rights.
We considered that employees had advised taxpayers of their rights if any of the required
documentation appeared to have been given to the taxpayers or a log entry to that effect was
found in the related case files. The fact that we could not identify the required documentation in
the case file does not mean the taxpayer was not informed of his or her rights. It means that,


                                                                                            Page 5
                    Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



from the information available to us, we could not determine if the taxpayer was informed
directly by the IRS.
Taxpayers could be negatively affected if the IRS does not comply with internal procedures
requiring that taxpayers be directly notified of their rights related to extensions to the assessment
statute of limitations. Based on our sample results, from an estimated population of
4,815 taxpayers with statute extensions, we projected there were 136 taxpayers7 for which case
files did not contain documentation to show the taxpayers were directly advised of their rights
when assessment statutes were extended. We are 95 percent confident that the range of
procedural errors is between 6 and 265 taxpayers. However, because the number of errors was
relatively small and consistent with prior years, we are not making any recommendations for this
issue.

Employees did not always use the revised version of Form 872
As discussed in the background of this report, the IRS revised the Form 872 consent forms to
include a statement notifying taxpayers of their rights regarding assessment statute extensions to
ensure that taxpayers are properly informed as required under IRC § 6501(c)(4)(B). In our
review, we identified cases in which IRS employees improperly used an outdated version of the
Form 872, which does not contain a statement detailing the taxpayers’ rights. Although we
identified records in the case files that the taxpayers or their representatives were advised of their
rights through other means, the taxpayers could be negatively affected if the case files were not
properly documented. IRS management informed us that the employees used previous versions
of the Form 872 that were saved to their computer hard drives. When we brought this issue to
management’s attention, the IRS took immediate action to correct the problem by directly
notifying Area Directors, Territory Managers, and Group Managers8 about the employees’ use of
the old versions of the Form 872. Area Directors then notified all Examination function
managers to destroy old versions of the Form 872 and to use only the most current version.

Some Case Files Did Not Have Documentation That Taxpayers’
Representatives Were Provided With Copies of the Notification of
Taxpayer Rights
Federal regulations require that any notice or other written communication required to be given
to a taxpayer should also be given to the taxpayer’s representative (unless restricted by the
taxpayer).9 IRS employees are instructed to document in their case file activity log whether the
taxpayer was notified of his or her rights each time the IRS requested an assessment statute

7
  See Appendix IV for details.
8
  Area Directors, Territory Managers, and Group Managers are the executive level, senior level, and frontline
managers in the Small Business/Self-Employed Division Examination function.
9
  26 C.F.R. § 601.506 (2002).
                                                                                                            Page 6
                      Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                         Taxpayers of Their Rights When Requested to Extend the
                                           Assessment Statute



extension. This applies to all computer-generated or manually generated notices or other written
communications.
While IRS employees documented that the taxpayers were informed of their rights and the
taxpayers signed the extensions, there were still instances in which IRS employees did not
document that the taxpayer’s representative was properly advised of the taxpayer’s rights. In our
sample of 72 taxpayers, 42 taxpayers’ files contained authorizations for third parties to represent
the taxpayers before the IRS. Of these 42 taxpayers, 4 (9.5 percent) files did not contain any
documentation supporting that the taxpayers’ representatives were provided with the required
notifications. Based on our sample results, from an estimated population of 4,815 taxpayers with
statute extensions, we projected there were 136 taxpayers’ files10 which were not documented to
show the taxpayers’ representatives were given copies of the written communications advising
taxpayers of their rights regarding assessment statute extensions. We are 95 percent confident
that the range is between 6 and 265 taxpayers. For these taxpayers, IRS management officials
informed us that some employees may have overlooked the fact that the required information
was not documented in the taxpayers’ files or the documents were separated from the taxpayers’
files. Figure 2 shows the trends in the error rate from Fiscal Year 2007 to Fiscal Year 2011. The
error rates were calculated as a percentage of the number of taxpayers sampled who had
authorized representatives for the identified year.
                           Figure 2: Error Rate – No Documentation That
                                   Representative Was Informed




               Source: Prior Treasury Inspector General for Tax Administration audit reports (see Appendix V).

Without the required documentation, we could not determine if the IRS properly notified the
taxpayers’ representatives in these four cases. Taxpayers might be adversely affected if the IRS
does not follow requirements to notify both the taxpayers and their representatives of the
taxpayers’ rights related to statute extensions. However, because the number of errors was



10
     See Appendix IV for details
                                                                                                           Page 7
                Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



relatively small and consistent with prior years, we are not making any recommendations for this
issue.




                                                                                         Page 8
                   Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B), which requires that the IRS provide notice to taxpayers of their rights to
decline to extend the assessment statute of limitations or to request that any extension be limited
to specific issues or a specific period of time. To accomplish this objective, we:
I.      Determined whether taxpayers and their designated representatives were being advised of
        their rights when the IRS requested an extension of the assessment statute.
        A. Reviewed Internal Revenue Manual, memoranda, and IRS guidelines to determine
           whether there had been any changes to existing policies and procedures for
           processing requests to extend the assessment statute of limitations since our last audit.
        B. Identified a population of 4,8151 unique taxpayers from the combined Business
           Master File and Individual Master File2 with closed examinations for which the
           assessment statute was extended. The period for the Individual Master File and
           Business Master File cases was from January 1 through June 30, 2010.
             1. Validated the Business Master File and the Individual Master File data by
                examining a random sample of 30 (15 from each Master File extract) taxpayers.
                This random sample was used for data validation and not for projecting or
                reporting results. The validation test results demonstrated that the data were
                reliable and could be used to meet the objective of this audit.
             2. Developed a statistical sampling plan using a 95 percent confidence level, an
                expected error rate of 5 percent, and a precision of ±5 percent, which resulted in a
                minimum sample size of 72 taxpayers (closed cases). A statistical sample was
                taken because we wanted to estimate the number of tax returns in the population
                for which taxpayer rights were potentially affected.




1
  We obtained a total of 6,219 tax periods representing 4,815 unique taxpayers for which the assessment statutes
were extended. We used 4,815 as our population to select our random sample to prevent the review of duplicate
taxpayers because the 6,219 included some taxpayers with multiple tax periods with extended statutes.
2
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 9
                    Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



             3. Randomly selected 200 taxpayer cases from the population identified in
                Step I.B.1. We selected more than our sample of 72 to ensure that we received
                enough cases that met our criteria.3
             4. Screened the cases in Step I.B.3. until we obtained our valid sample of 72 unique
                taxpayers.
         C. Reviewed the 72 selected taxpayers’ returns and related case files for the necessary
            documentation to verify whether taxpayers and their representatives, if applicable,
            were properly advised of their rights regarding assessment statute extensions. We
            then discussed exceptions with the various business unit coordinators for agreement
            to the facts.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, and practices
used by the Office of Appeals, Large Business and International Division, Small Business/
Self-Employed Division, Tax Exempt and Government Entities Division, and Wage and
Investment Division as they relate to notifying taxpayers of their rights to decline to extend the
assessment statute of limitations or to request that any extension be limited to specific issues or a
specific period of time. We evaluated these controls by reviewing applicable manuals and
documentation, interviewing management from these functions, and reviewing a statistical
sample of 72 taxpayer cases.




3
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                              Page 10
                Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Cristina Johnson, Lead Auditor
Joel Weaver, Lead Auditor
Doris Cervantes, Senior Auditor
Mike Della Ripa, Senior Auditor




                                                                                      Page 11
               Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                  Taxpayers of Their Rights When Requested to Extend the
                                    Assessment Statute



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Counsel CC
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large Business and International Division SE:LB:FS
Director, Communication and Liaison, Large Business and International Division SE:LB:M:CL
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP:TP:SS
       Chief Counsel CC




                                                                                  Page 12
                   Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our current findings
will have on tax administration. These benefits will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlement – Potential; 136 estimated taxpayers whose related case
    files did not contain documentation to show that the taxpayers were directly advised of their
    rights by the IRS when assessment statutes were extended in accordance with IRS
    publications and procedures (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which there was no documentation to support that the
taxpayers were directly advised of their rights, we identified 4,8151 unique taxpayers from the
universe of Business Master File and Individual Master File2 closed cases in which the
assessment statute was extended. The time period was January 1 through June 30, 2010. We
used a 95 percent confidence level, an expected error rate of 5 percent, and a ±5 percent
precision to determine our sample size of 72 taxpayers.
Because of the difficulty we encountered with obtaining the associated case files for some of
these returns, we requested tax returns for 200 taxpayers for which the assessment statute was
extended. This enabled us to obtain entire case files (more than one tax period if necessary) for
each taxpayer. After screening through files for 142 taxpayers having at least 1 tax period with
an extended statute and selecting 1 tax period for each taxpayer, we met our sample size of
72 taxpayers with complete case files that met our criteria. Some of the cases that we screened
did not meet the criteria for Consent to Extend the Time to Assess Tax (Form 872) and we




1
  We obtained a total of 6,219 tax periods representing 4,815 unique taxpayers for which the assessment statutes
were extended. We used 4,815 as our population to select our random sample to prevent the review of duplicate
taxpayers because the 6,219 included some taxpayers with multiple tax periods with extended statutes.
2
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 13
                    Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



needed to eliminate 70 taxpayers.3 Some other cases did not have complete documentation
although they met our criteria.
We reviewed the sample of 72 taxpayer case files to determine if taxpayers were directly advised
of their rights and identified 4 (5.6 percent) taxpayers for whom the required documentation was
not found. This was the exception rate. However, since we had excluded 70 taxpayer case files
that were received but did not meet our criteria, we needed to account for those returns when
projecting to the population. As a result, we added those back to the 72 to get to 142 taxpayers.
We then divided 4 (2.82 percent) by 142 and used this percentage to project to the population.
We then multiplied 2.82 percent by the population to project the total number of taxpayers whose
case files did not contain documentation that the taxpayers were directly advised of their rights
(4,815 * 2.82 percent = 136 taxpayers). The range of lower and upper limits was then calculated
using this error rate and the precision of 2.69 percent with a 95 percent confidence level. We are
95 percent confident that the range of procedural errors is between 6 and 265 taxpayers.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 136 taxpayers whose case files were not
    documented to show that the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions in
    accordance with Federal regulations (see page 6).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which there was no documentation to support that the
taxpayers’ representatives were advised of the taxpayers’ rights, we used the same sample of 72
taxpayers and identified 42 taxpayer case files that contained an authorization for a third party to
represent the taxpayer before the IRS. In 4 (9.5 percent) of the 42 taxpayer case files, there was
no documentation that employees provided the representatives with a copy of the written
communications provided to the taxpayers. However, to project our results to the population, we
had to fully account for the 72 taxpayer cases reviewed as well as the 70 cases that did not meet
our criteria (72 + 70 = 142 taxpayer cases). We divided 4 (2.82 percent) by 142 and used this
percentage to project to the population. We then multiplied 2.82 percent by the population to
project the total number of taxpayers’ representatives not advised of the taxpayers’ rights (4,815
* 2.82 percent = 136 taxpayers). The range of lower and upper limits was then calculated using
this error rate and the precision of 2.69 percent with a 95 percent confidence level. We are 95
percent confident that the range of errors is between 6 and 265 taxpayers.




3
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                              Page 14
                Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



                                                                             Appendix V

                             Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed 11 mandatory
audits in this subject area. These audits were:
Fiscal Year 2010 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2010-30-103, dated
August 25, 2010.
Fiscal Year 2009 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2009-30-113, dated
August 3, 2009).
Fiscal Year 2008 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2008-40-127, dated
June 5, 2008).
Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2007-40-167, dated
August 31, 2007).
Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2006-40-163, dated
September 21, 2006).
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2005-40-112, dated
July 21, 2005).
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2004-40-108, dated
June 9, 2004).
Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2003-40-193, dated
September 11, 2003).
Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2002-40-175, dated
September 24, 2002).



                                                                                     Page 15
                Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
Assessment Statute of Limitations (Reference Number 2001-10-157, dated September 24, 2001).
Information Provided to Taxpayers When Requesting Extensions of the Assessment Statute of
Limitations Can Be Improved (Reference Number 2000-10-142, dated September 29, 2000).




                                                                                     Page 16
                   Fiscal Year 2011 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



                                                                                           Appendix VI

                      Case Review Results by Division

                                                                 Division1
Compliance With Requirement to
Notify Taxpayers of Their Rights            Appeals      LB&I      SB/SE      TE/GE       W&I       Totals
Number of Taxpayers’ Files That Did Not
Contain Documentation That Taxpayers
                                             **1**          0            3       0          0         **1**
Were Directly Informed of Their Rights as
Required by Internal Procedures

    Number of Taxpayers’ Files Reviewed:       13           6        49       **1**      **1**        **1**




                                                                 Division
Compliance With Requirement to
Notify Representatives of
Taxpayer Rights                             Appeals      LB&I     SB/SE      TE/GE       W&I       Totals
Number of Taxpayers’ Files That Did Not
Contain Documentation That Taxpayers’
Representatives Were Provided With              0       **1**        3         0           0          **1**
Copies of the Notification of the
Taxpayers’ Rights


    Number of Taxpayers’ Files Reviewed:        8          3        28       **1**       **1**        **1**




1
 Office of Appeals, Large Business and International (LB&I) Division, Small Business/Self-Employed (SB/SE)
Division, Tax Exempt and Government Entities (TE/GE) Division, and Wage and Investment (W&I) Division.
                                                                                                     Page 17
